CARDHOLDER AGREEMENT
Card(s). We can increase or decrease your Credit Limit and/or Cash
Limit at any time without prior notice or liability. A change to your Credit
Limit and/or Cash Limit will not affect your obligation to pay us.

This cardholder agreement (“Agreement”) is for your Account with
Commerce Bank, and the Card(s) which has/have been given to you in
connection with your Account. Such Account and Card(s) provide you
with credit card services and ATM Services. “You” and “your” mean any
applicant for the Account and any person using the Account and/or
related Card(s) with the expressed or implied permission of any of the
applicants. Any person whose name appears on the Account for the
Card(s) accompanying this Agreement consents, either by using or
permitting another to use the Card(s), to all provisions of this Agreement
and the related Security Agreement and Assignment of Secured Credit
Card Savings Account and Deposit Account Agreement. “We”, “us” and
“our” means Commerce Bank, our successors and assigns.

We may decline, at any time in our sole discretion, an authorization
request for any transaction for any reason, included but not limited to:
•
operational considerations,
•
your Account is in default,
•
we suspect fraudulent or unlawful activity
We are not responsible for any losses or damages, including
consequential damages, if a transaction on your Account is declined,
either by us or a third party, even if you have sufficient credit available.

This Agreement contains an arbitration provision, a class action
waiver, and a jury trial waiver. Please read the entire section titled
“DISPUTE RESOLUTION - ARBITRATION” and the section titled
“DISPUTE RESOLUTION – JURY TRIAL WAIVER.”

INSTALLMENT PLAN
Installment Plans may be available for eligible Accounts to initiate and
can be used for qualifying transaction(s) only; and not for a Cash
Advance, Balance Transfer, or any Fee owed to us. When selecting an
Installment Plan, the qualifying transaction(s) will be moved to an
Installment Plan balance and may be subject to an Installment Plan Fee
instead of the periodic interest rate. If you do not pay your entire
Installment Plan balance in the pre-selected amount of billing cycles, any
remaining balance will be transferred to your applicable Purchase or
Convenience Check balance and your respective periodic interest rate
applied.

In this Agreement:
Account is your credit card account.
Annual Fee is a fee charged on a yearly basis for your continued use of
the Account.
APR is Annual Percentage Rate.
ATM is Automated Teller Machine.
Balance Transfer is an advance made when transferring a balance from
another creditor to your Account.
Business Days are Monday through Friday. Federal holidays are not
included.
Card is the credit card(s) given to you in connection with your Account.
Cash Advance includes:
• Non-Overdraft Cash Advance is an advance made by means of
an electronic device or machine, or a financial institution teller, or for
the purchase of wire transfers, non-U.S. currency, travelers’ checks,
money orders, lottery tickets and casino gaming chips.
• Overdraft Cash Advance is an advance made by means of
overdraft protection.
Cash Limit is the maximum dollar amount of your Credit Line, as defined
herein, available for Cash Advances.
Charges are costs imposed as part of this Agreement and include both
interest and fees.
Convenience Check is a check provided to you to access credit from
your Account.
Daily Balance is determined, for each day in the billing cycle, by taking
the beginning balance, adding any new transactions or other debits,
(excluding any active Installment Plans) and subtracting any payments or
other credits.
Daily Periodic Rate is the APR divided by 365.
Fees are non-Interest Charges, including transaction fees.
Grace Period means the period of time during the billing cycle when you
will not accrue Interest Charges on certain transactions or balances.
Installment Plan is a feature that can be used to make fixed monthly
payments over a pre-selected number of billings cycles for qualifying
transaction(s).
Installment Plan Fee is a fee charged on a monthly basis on all active
Installment Plans.
Interest Charges are the portion of Charges attributed to periodic
interest rates.
PIN is Personal Identification Number.
Prime Rate is the U.S. Prime Rate published in The Wall Street Journal
in its column called “Money Rates” on the last Business Day of each
month.
Obligations are any and all amounts owed under this Agreement
including, but not limited to, Purchases, Cash Advances and Charges.
Promotional Balance is the balance subject to the Promotional Rate.
Balances subject to Introductory Rates are included.
Promotional Rate is a rate other than the standard rate, tied to a special
offering. A Promotional Rate offered when you open your Account may
be called an Introductory Rate.
Purchase means purchase of merchandise or services on the Account
plus Charges, but does not include any Balance Transfer, Convenience
Check, Cash Advance, Installment Plan and related Fees or Interest
Charges.
Secured Credit Card Savings Account (“Pledged Account”) is a
deposit account that serves as collateral for your Obligations.
Statement is your billing statement.

We may limit the number of active Installment Plans you can have at one
time and reserve the right to change this number at any time. Installment
Plans cannot be cancelled after they have been set up, but you can
choose to pay the Installment Plan early by paying the new balance,
shown on your most recent Statement, in full. If you pay an Installment
Plan off early, you will not incur any future Installment Plan Fees for that
Installment Plan.
In the event you return items from an Installment Plan, we will choose
how to apply the credit to your existing Account balances, including
whether to apply a credit to an Installment Plan balance or a different
balance.
PROMISE TO PAY
You promise to pay for all Purchases, Balance Transfers, Convenience
Checks, Installment Plans and Cash Advances made by you through the
use of the Account. In addition, you promise to pay all other amounts
owed due to use of the Account by anyone else you authorize to use the
Account until such person’s authority is ended. You may only end such
person’s authority by notifying us in writing and returning to us any Card
such person may have. All of you are responsible, both together and
individually, for the entire Account balance even though only one of you
uses the Account.
SECURED CREDIT CARD SAVINGS ACCOUNT
You are required to open a pledged account (“Pledged Account”) which
will serve as security for your Obligations and execute a security
agreement and assignment of secured credit card savings account
(“Savings Account”). The owners of the Savings Account and the
Pledged Account must be the same. The issuance of your Card or
increase of your credit limit may be delayed for a reasonable period of
time, following the deposit of funds to the Pledged Account.
Collateral securing other loans with us may also secure this
indebtedness.
BILLING STATEMENTS
Approximately once a month, you will receive a Statement. On average,
your payment is due within 25 days from the date of the Statement
(payment due date).
PAYMENT OPTIONS
You may pay the new balance shown on your Statement each month or
you may pay in monthly installments. If you decide to pay in monthly
installments, you must pay at least the minimum payment on your
Statement. The minimum payment will include the sum of all active
Installment Plan payments due, plus the greater of:
•
•

CREDIT CARD SERVICES
The following provisions relate only to credit card services except as
otherwise applicable.
ACCOUNT DESCRIPTION
At Account opening, we will grant you a line of credit with a minimum
dollar limit of $400, and a maximum dollar limit of $5,000 equal to the
amount you deposit into your Pledged Account (“Credit Limit”) and may
designate a “Cash Limit”. If your account is in good standing, you may
subsequently increase the credit limit by depositing additional funds in
increments of $100 dollars to the Pledged Account up to the $5,000
maximum. Accrued interest on the Pledged Account will be included in
meeting the $100 increment. Larger deposits and credit limits in excess
of $5,000 are at our sole discretion. These limits will be indicated on your
Statement. You may not decrease your credit limit by withdrawing funds
from the Pledged Account.

$30.00 or the full amount of your total balance (excluding any active
Installment Plan balances) if it is less than $30.00; or
1.00% of your new balance (excluding any active Installment Plan
balances) plus any amounts that are past due, plus Fees (excluding
Balance Transfer and/or Convenience Check Fees) and Interest
Charges accumulated during the billing period.

When a payment is posted to your Account, we reserve the right to
restrict or delay all or part of the available credit created by the payment.
The restriction or delay of the available credit is for risk management or
other related purposes, including but not limited to protection against
actual or potential fraudulent activities or unauthorized transactions.
OVERDRAFT PROTECTION
If you select overdraft protection, a Cash Advance will be made to cover
an overdraft in your designated Commerce Bank deposit account. Such
Overdraft Cash Advances will be in the amount of $50.00 or multiples of
$50.00. If the designated deposit account is a joint account, you will be
liable for all overdrafts on the account regardless of which joint account
owner caused, or benefited from the overdraft. Each Overdraft Cash
Advance is at our discretion. We may permit or refuse to permit any
Overdraft Cash Advance that would cause you to exceed the Cash Limit
on your Account. We are not liable or responsible for any check drawn
that may for any reason be returned or otherwise dishonored. We may
cancel this overdraft feature at any time without notice.

Subject to the terms of this Agreement, you may use your Account to
make Purchases and obtain Balance Transfers, Convenience Checks,
Installment Plans and Cash Advances that do not exceed your Credit
Limit and/or Cash Limit at any time. Should your Purchases, Balance
Transfers, Convenience Checks, Installment Plans and/or Cash
Advances ever exceed your Credit Limit and/or Cash Limit, we reserve
the right to terminate this Agreement and demand the return of your
1

BALANCE ON WHICH INTEREST CHARGES ARE CALCULATED
If you accrue any Interest Charges on your Account at a variable rate,
that rate will be calculated by adding a margin to the Prime Rate. Please
see the ACCOUNT OPENING DISCLOSURE, which is part of this
Agreement, for specific information regarding the APRs used to
compute your Interest Charges.

Late Payment Fee
For each minimum payment not received by the fifteenth day following
the payment due date, we may charge a Fee (“Late Payment Fee”).
Foreign Transactions
Visa and MasterCard Purchases, cash withdrawals and Cash Advances
made in currencies other than U.S. Dollars will be converted to U.S.
Dollars under regulations established by VISA® International and
MasterCard® International. Visa conversion will be at a rate selected by
Visa from the range of rates available in wholesale currency markets for
the applicable central processing date, which may vary from the rate
Visa itself receives or the government-mandated rate in effect for the
applicable central processing date. MasterCard conversion will be at a
rate selected by MasterCard, typically either a government-mandated
rate or a wholesale rate provided to MasterCard. Conversion to U.S.
dollars may occur on a date other than the date of the transaction.
Therefore, the conversion rate may be different from the rate in effect at
the time of the transaction. You agree to pay the converted amount plus
the applicable foreign transaction Fee. For Purchases, cash
withdrawals, and Cash Advances made in U.S. dollars outside of the
United States and its territories, you agree to pay the transaction
amount, plus the applicable foreign transaction Fee.

We calculate your Daily Balance for each day in the billing cycle by
taking your beginning balance, adding any new transactions (excluding
any active Installment Plans) or other debits, and subtracting any
payments (excluding payments toward any active Installment Plan) or
other credits. We multiply the Daily Balance by the Daily Periodic Rate
to get your Interest Charges for that day. We add these Interest Charges
to your Daily Balance to get the beginning balance for the next day. We
do this for all days on which you have a balance owing on the Account,
disregarding any credit balance, for the billing cycle.
We add all the daily Interest Charges and round the sum to the next
highest cent to get your total Interest Charges for that billing cycle. We
do this calculation separately for each type of balance.
The Prime Rate used to determine the APR on your Account is the U.S.
Prime Rate published in The Wall Street Journal in its column called
“Money Rates” on the last Business Day of each month. Although each
Daily Periodic Rate is determined by an index published prior to the first
day of each calendar month, the respective Daily Periodic Rate will only
become effective and charged as of the first day of the monthly billing
period following the respective calendar month in which the index is so
published. No representation is made that the U.S. Prime Rate is the
lowest, the best or the favored rate of interest. If for any reason The Wall
Street Journal no longer publishes the “Money Rates” column, then we
will choose a new index based on comparable information. An increase
in the Prime Rate will cause your interest rate to increase and may cause
your minimum monthly payment to increase.

Balance Transfer Or Convenience Check Transaction Fee
You will not be charged a transaction Fee for each Balance Transfer
and/or Convenience Check posted to your Account.
Non Overdraft Cash Advance Transaction Fee
You will not be charged a transaction Fee for each Cash Advance posted
to your Account.
Overdraft Cash Advance Transaction Fee
You will not be charged a transaction Fee for each Cash Advance
resulting from the overdraft protection.

INTEREST CHARGE COMPUTATION
•

Installment Plan Fee
You may be charged an Installment Plan Fee for each Installment Plan.
Each Installment Plan Fee will be disclosed prior to establishing the
Installment Plan and charged monthly throughout the Installment Plan
duration. The Installment Plan Fee will appear on your Statement.

ON PURCHASES: Interest Charges begin to accrue on the
transaction date, provided such date will never be later than the
date the Purchase is posted to the Account or earlier than the first
day of the billing cycle for the Statement on which such transaction
is shown. Purchases are subject to a Grace Period. If the previous
balance is zero or was paid in full by the payment due date shown
on your Statement, no Interest Charge will be assessed on current
Purchases.

Overlimit Fee
In the event your balance exceeds your credit limit, no Fee will be
charged.
OTHER FEES:

•

ON BALANCE TRANSFERS OR CONVENIENCE CHECKS:
Except for Convenience Checks associated with Installment Plans,
Interest Charges begin to accrue on the date of the Balance
Transfer or Convenience Check, provided such date will never be
later than the date the Balance Transfer or Convenience Check is
posted to the Account or earlier than the first day of the billing cycle
for the Statement on which such transfer or check is shown.

•

ON CASH ADVANCES: Interest Charges begin to accrue on the
date of the Cash Advance, provided such date will never be later
than the date the Cash Advance is posted to the Account or earlier
than the first day of the billing cycle for the Statement on which such
advance is shown.

•

ON INSTALLMENT PLANS: No Interest Charges are applied to
active Installment Plans.

Returned Payment Fee
A Fee will be charged for any check or other form of payment sent to us
which is returned unpaid.
Convenience Checks and Document Copy Charges
Charges for Convenience Checks and requests for copies of sales
drafts, Statements or other documents related to your Account may be
billed on your Account as Purchases in accordance with the fee schedule
established by us from time to time. No charge will be made for copy
requests related to billing error resolution within 60 days of the disputed
transaction.
TOTAL FEE COMPUTATION
We add all Fees assessed to obtain your total Fees for each billing cycle.
Installment Plan Fees will be charged monthly throughout the Installment
Plan duration.

TOTAL INTEREST CHARGE COMPUTATION
We add Interest Charges for each type of balance (excluding active
Installment Plans) to obtain your total Interest Charge for each billing
cycle.

CANCELLATION
To the extent permitted by law, Commerce Bank may cancel your
Account, refuse to allow further transactions against your Account or
revoke your Card(s) at any time (whether or not you are in default of any
part of this Agreement) including, without limitation, when any affiliation
you may have with a sponsoring organization ceases or when any
agreement we may have with the sponsoring organization is terminated.
Cancellation of your Account will not affect your liability to us for credit
we have extended to you, including amounts not yet billed to your
Account. We may cancel your Account without prior notice or liability.
You must surrender the Card(s), either upon a direct request by us, or
any other bank or merchant who is acting upon our instructions.

TERMINATION OF INTRODUCTORY OR PROMOTIONAL RATES
If during an Introductory or Promotional Rate period, we have not
received the required minimum monthly payment within 60 days of the
respective payment due date, we will increase the applicable APR to the
penalty APR. Introductory and/or Promotional Rates will not be
reinstated.
TERMINATION OF INSTALLMENT PLAN
If, during a period when an active Installment Plan is associated with the
Account, we have not received the required minimum monthly payment
within 60 days of the respective payment due date, we will cancel the
Installment Plan and will apply the Penalty APR. The Installment Plan
cannot be reinstated or recreated.

CONDITIONS OF DEFAULT
We may consider you to be in default if we do not receive a required
payment when due, including the minimum payment by the date shown
on your Statement; you fail to comply with the terms of this Agreement;
you make any false or misleading statements or omissions on your
application; you file a bankruptcy petition or have one filed against you;
we obtain information that causes us to believe that you may be unwilling
or unable to pay your debts to us or to others on time including, but not
limited to, your failure to make any payment to us on any other
indebtedness or loan; you are declared incompetent by a court or a court
appoints a guardian/ conservator for you or your assets; or you die.

FEES
TRANSACTION, ANNUAL AND PENALTY FEES:
Please see the ACCOUNT OPENING DISCLOSURE for information
regarding the specific Fees that may be charged to your Account. Your
Installment Plan Fee will be displayed at the point of purchase as part of
your purchase confirmation or Convenience Check offer.

If we consider your Account to be in default, we may close your Account
without notice, require you to pay the balance in a manner permitted by
law and/or exercise our rights under the Security Agreement and
Assignment of Secured Credit Card Savings Account (subject to
applicable law regarding notice or right to cure). To the extent permitted
by law, if you are in default you will pay our collections costs, attorneys’
fees, court costs, and all other expenses of enforcing our rights under
this Agreement.

Minimum Interest Charge
A minimum Interest Charge will be imposed in any billing cycle for which
an Interest Charge is payable and will appear on your Statement as a
Fee.
Annual Fee
Your Account may have an Annual Fee that will be added annually to
your Account. The imposition or payment of an Annual Fee does not
affect or limit our right to terminate this Agreement, cancel your Account,
and demand payment, in a manner permitted by law, of any amounts
owed on your Account.

ALLOCATION OF PAYMENTS
We will allocate your minimum payment in the manner we determine. If
there are any active Installment Plans associated with the Account, we
will apply payment to the Installment Plan(s) first. We will then apply the
amount in excess of the minimum payment to balances with higher APRs
2

before balances with lower APRs and then to any Installment Plan
balance(s) in order of earliest Installment Plan expiration date.

Communication Revocation
If you do not want to receive communications as described in the
previous paragraph, you must: (i) provide us with written notice revoking
your prior consent, (ii) in that written notice, you must include your name,
mailing address, and the last four digits of your Account number; (iii)
advise whether you would like communications to cease via mail, voice
calls, telephone number(s), email, text/SMS, or cease in all forms; (iv) if
you are requesting communications to cease via telephone number(s)
and/or email, please provide the specific phone number(s) and email
address; (v) you must send this written notice to:

RECEIPT OF PAYMENTS
Payments received before 5 PM CT at the address shown on your
Statement on any of our regular Business Days will be posted as of the
date of receipt. Payments made in person before the close of business
to an employee at a Commerce branch will be posted as of date of
receipt. Payments mailed to the address shown or made in person at a
branch must be accompanied by the Account number or payment stub,
and in the form of a check or money order in U. S. Dollars drawn on a U.
S. financial institution. Convenience Checks will not be accepted as a
form of payment. Do not send cash through the mail. A delay in crediting
the payment to your Account may occur if the payment does not meet
these requirements for making payments (conforming payments). In no
case shall such delay exceed five days from receipt of such payment.

Commerce Bank
Attention – Commerce Bank Customer Service
P.O. Box 411036, Kansas City, MO 64141-1036
Telephone Conversation Recording
You consent and agree that our staff may monitor and/or record phone
calls between you and our representatives without additional notice to
you, including but not limited to calls we make to service your account or
collect debt(s).

The cutoff time for payments made on any of our regular Business Days
through Commerce as transfers from your Commerce deposit account
are as follows: Commerce ATM, 7:00 PM CT; Commerce Online
Banking, including Mobile Banking, 7:00 PM CT; Commerce Account
Information Line, 7:00 PM CT; Commerce Collections Department, 11:00
PM CT. A payment made through Commerce Online Bill Pay will be
posted on the Pay Date.

MILITARY LENDING ACT DISCLOSURE
Federal law provides important protections to members of the Armed
Forces and their dependents relating to extensions of consumer credit. In
general, the cost of consumer credit to a member of the Armed Forces
and his or her dependent may not exceed an annual percentage rate of
36 percent. This rate must include, as applicable to the credit transaction
or account: The costs associated with credit insurance premiums; fees
for ancillary products sold in connection with the credit transaction; any
application fee charged (other than certain application fees for specified
credit transactions or accounts); and any participation fee charged (other
than certain participation fees for a credit card account). You can call toll
free to 855-225-1576 to hear the applicable required Military Lending Act
disclosures.

Conforming payments received after the respective cutoff time will be
posted no later than the next Business Day. Payments made by a thirdparty payor, will be posted as of the date we receive the payment.
When the due date falls on a weekend or holiday, your payment due
date will be on the next Business Day.
We may accept late payments, partial payments or checks and money
orders (or accompanying written communication) containing a statement
to the effect that the instrument was tendered as “payment in full,” full
satisfaction of a disputed claim or other similar language without losing
any rights under this Agreement or under the law. All such payments or
written communications must be mailed to: Commerce Bank, P.O. Box
410857, Kansas City, MO 64141-1857.

MISCELLANEOUS PROVISIONS
You also agree that:
•
We may refuse to extend credit to you or anyone using your
Account or Card(s).
•
We will not be liable or responsible for anyone’s refusal to honor
your Card(s).
•
Each Account you have with us is separate from any others you
have with us, and Interest Charges will be charged on each
Account’s balance at the APR given with each Agreement. Each
individual Account will be designated by an individual Account
number.
•
Your Card(s) are Commerce Bank property.
•
We may change the premium enhancements offered at any time
without further notice to you.
•
Merchants with whom you’ve shared your Account number may be
updated with new Account information to ensure the continuation of
your payment agreement.
•
You will not use your Card(s) for any purpose that has been
deemed illegal. We reserve the right to deny authorization requests
from online gambling merchants, whether or not online gambling is
illegal in the state in which you reside.
•
Commerce Bank may share your Account experience and
transaction information with its Affiliates, which are members
of the Commerce Family of Companies as defined in your
Privacy Statement. Unless you call 1-800-543-4845, you agree
that Commerce Bank and its Affiliates may also share other
information about you or your Account.
•
You must notify us immediately at Commerce Bank, P.O. Box
411036, Kansas City, MO 64141-1036, if you believe any
information we reported to a credit reporting agency is inaccurate.

CHANGE OF TERMS
Provided the Account is meeting the terms of this Agreement: (1) We
will not increase an introductory APR during any Introductory Rate
period; and (2) We will not increase any APR, Annual Fee or minimum
Interest Charge for 12 months following account opening, except for
increases due to the expiration of an Introductory or Promotional Rate
period, if any; changes in the Prime Rate; completion or failure of a
temporary hardship arrangement; or the end of military service to which
the provisions of the Servicemembers Civil Relief Act (SCRA) apply.
(“Exceptions”). Otherwise, we may change the terms of the Agreement
at any time, after notice and the right to reject if required by law.
Changes in any APR, other than the stated Exceptions, Annual Fee or
minimum Interest Charge will apply to new transactions created after the
end of the 14th day following our providing notice to you. If you reject a
change, your Account will be cancelled and you will no longer be able to
use the Account.
Cancellation of your Account will not affect your liability to us for credit
we have extended to you, including amounts not yet billed to your
Account.
ELECTRONIC RECORDS
You agree that this document and all paper records related to your
Account and whether or not the other paper records were submitted,
received or obtained in advance of, contemporaneously with or
subsequent to, the delivery of this document may, at the option of
Commerce Bank, be converted by any digital or electronic method or
process to an electronic record or subsequently further converted or
migrated to another electronic record format or electronic storage
medium. You further agree that upon conversion to an electronic record
as authorized herein such electronic record shall be the record of the
transaction and the electronic record shall have the same legal force and
effect as the paper documents from which it was converted. You waive
any legal requirement that any documents digitally or electronically
converted be embodied, stored, or reproduced in a tangible media. You
undersigned and agree that a printed or digitally reproduced copy of the
electronic record shall be given the same legal force and effect as a
signed writing. In addition, you authorize and agree to destruction of the
paper documents by Commerce Bank upon conversion of the paper
documents to a digital or electronic record.

CHANGES IN ADDRESS
You agree to notify us immediately if you change your address.
INTERPRETATION
The Agreement shall be governed by applicable federal law and
regulations. To the extent not preempted by applicable federal law, this
Agreement shall be governed by the laws of the state of Missouri.
Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your Statement, write to us at:
Commerce Bank P.O. Box 411036, Kansas City, MO 64141-1036.
You may also send us this information via fax at 1-816-234-2811

COMMUNICATIONS CONSENT
You expressly consent and agree that Commerce Bank and their
affiliates, agents, vendors, collections agencies, and service providers
may use written, electronic or verbal means to contact you. The ways in
which we may contact you include, but are not limited to, contact by
manual calling methods, live operator calls, prerecorded or artificial voice
calls and messages, text messages, emails, and/or automatic telephone
dialing systems. You agree that Commerce Bank and their affiliates,
agents, vendors, collections agencies, and service providers may contact
you by using any email address or any telephone number you provide,
now or in the future, including a number for a cellular phone or other
wireless device, regardless of whether you incur charges as a result.
Phone numbers and email addresses, you provide include those you
give to us, those from which you contact us or which we obtain through
other means. Message and data rates may apply.

In your letter, give us the following information:
•
Account information: Your name and Account number.
•
Dollar amount: The dollar amount of the suspected error.
•
Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe it
is a mistake.
You must contact us:
•
Within 60 days after the error appeared on your Statement.
•
At least 3 Business Days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call us, but
if you do, we are not required to investigate any potential errors and you
may have to pay the amount in question.

Indemnification
If you provide telephone number(s) for which you are not the subscriber,
you understand that you shall indemnify us for any costs and expenses,
including reasonable attorneys’ fees, incurred as a result of us contacting
or attempting to contact you at the number(s) provided. In the event any
of your contact information changes, you agree to immediately notify us.

3

What Will Happen After We Receive Your Letter

of action between you and us, whether preexisting, present or future,
arising out of, related to or concerning this Agreement, your Account, the
services provided pursuant to this Agreement, optional features including
but not limited to Special ConnectionsSM and toggle©, any relationship
between you and us, or any advertisement or solicitation, whether such
Claim is asserted or brought in a direct, derivative, assignee, survivor,
successor, beneficiary or personal capacity. Without limiting the
foregoing, the term “Claim” also includes any unresolved disagreement,
controversy, dispute, or cause of action between you and us arising out
of, related to or concerning any fees or charges relating to any
Account(s), and any services relating to any Account(s), optional
features including but not limited to Special ConnectionsSM and toggle©,
on-line or telephone banking services, communication methods and
practices we may use to service your Account, and ATM services. It also
includes any disputes you have with our agents, contractors, employees,
officers or assignees, any merchants with whom you use the Account,
any credit reporting agencies to whom we report the Account or any
other third party that has been involved or becomes involved with, or
whose trademarks are used in connection with, any purchasing,
marketing, soliciting, servicing or credit reporting activity relating to your
Account. The Claims covered by this agreement to arbitrate include,
without limitation:

When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we
received your letter. We will also tell you if we have already corrected the
error.
2. Within 90 days of receiving your letter, we must either correct the error
or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
•
We cannot try to collect the amount in question or report you
as delinquent on that amount.
•
The charge in question may remain on your Statement, and
we may continue to charge you interest on that amount.
•
While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
•
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
•
If we made a mistake: You will not have to pay the amount in
question, or any Interest Charges or other Fees related to that
amount.
•
If we do not believe there was a mistake: You will have to pay
the amount in question, along with applicable Interest Charges
and Fees. We will send you a Statement of the amount you
owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do
so, we cannot report you as delinquent without also reporting that you
are questioning your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those organizations
know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first
$50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card
Purchases
If you are dissatisfied with the goods or services that you have
Purchased with your credit card and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay
the remaining amount due on the Purchase.
To use this right, all of the following must be true:
1. The Purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must have
been more than $50. (Note: Neither of these are necessary if your
Purchase was based on an
advertisement we mailed to you, or if we own the company that sold you
the goods or services.)
2. You must have used your credit card for the Purchase. Purchases
made with Cash Advances from an ATM or with a check that accesses
your credit card Account do not qualify.
3. You must not yet have fully paid for the Purchase.

•

Any disputes regarding: the application you prepared in
connection with the issuance of your Account; any solicitation
or advertising materials you received in connection with your
Account; any activities relating to the maintenance or servicing
of your Account; and any funds held by the Bank in connection
with your Account;

•

Any disputes arising from the collection of amounts you owe in
connection with your Account or the manner of collection;

•

Any disputes concerning the dollar amount of payments made
or transactions posted to your Account;

•

Any disputes concerning the processing of items or funds
transfers sent to the Bank for the purpose of posting to your
Account;

•

Any disputes regarding information obtained by us from, or
reported by us to, credit bureaus or others;

•

Any disputes related to insurance or other services or products
purchased from us in connection with your Account;

•

Any disputes regarding communications involving telephones,
automatic dialing systems, artificial or prerecorded voice
messages, SMS text messages or facsimile machines; and

•

Any disputes concerning the relationships resulting from this
Agreement, your Account or any of the foregoing.

The term “Claim” includes claims of every kind and nature, including but
not limited to, initial claims, counterclaims, cross-claims and third-party
claims and claims based upon contract, tort, fraud and other intentional
torts, statutes, regulations, common law and equity. For purposes of this
section, “we,” “us,” and “our” includes Commerce Bank, any corporate
parent, subsidiaries, affiliates, employees, officers, directors, agents,
controlling persons and representatives, as well as any person or entity
who provides any services in connection with this Agreement or who is
named as a co-defendant with us in a Claim asserted by you.

If all of the criteria above are met and you are still dissatisfied with the
Purchase, contact us in writing at:
Commerce Bank P.O. Box 411036, Kansas City, MO 64141-1036.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.

What Disputes are Not Subject to Arbitration? Notwithstanding any other
language herein, the term “Claim” shall not include any dispute or
controversy regarding the validity, enforceability, coverage or scope of
this agreement to arbitrate or any part thereof, including, without
limitation, the “Waiver of Jury Trial and Class or Representative Action”
provision set forth below, subsections A and B of the “Survival and
Severance” provision set forth below and this sentence; all such disputes
are for a court and not the arbitrator to decide. In addition, claims filed
by you or us individually in small claims court, so long as any such claim
remains in that court and advances only an individual claim for relief, are
not subject to arbitration. However, if a claim is transferred, removed or
appealed to a different court, you or we will then have the right to
demand arbitration of such claim. Other claims, disputes, controversies
or issues not subject to arbitration are set forth in the section titled
“Rights Preserved.”

LIABILITY FOR UNAUTHORIZED USE
If your name appears on the Account for the Card(s) accompanying this
Agreement, then by using or permitting another to use the Card(s) and/or
PIN, you agree to all the provisions of this Agreement, including, but not
limited to your promise to pay. You will not be liable for unauthorized
use that occurs after you notify Commerce Bank orally or in writing.
Notification of loss, theft or possible unauthorized use may be mailed to
Commerce Bank, P.O. Box 411036, Kansas City, MO 64141-1036, or
you may call 1-800-645-2103.
DISPUTE RESOLUTION – ARBITRATION

Agreement to Arbitrate
You and we agree that either of us may elect to resolve any Claims (as
defined below) through binding arbitration unless you opt out of the
agreement to arbitrate as set forth below, or unless prohibited by law. If
you or we elect to resolve a Claim through arbitration, neither you nor we
will have the right to pursue such claim in court or have a jury decide the
claim, nor will you or we have the right to bring or participate in any class
or other representative action in court or in arbitration.

How Does Arbitration Work? The arbitration shall be administered by the
American Arbitration Association (“AAA”), pursuant to its Consumer
Arbitration Rules (collectively, “Rules”) in effect at the time a demand for
arbitration is filed. The Rules are available online at www.adr.org, or you
may contact the AAA at 120 Broadway, Floor 21, New York, N.Y 10271.
If the AAA is unable to serve and you and we cannot agree on a
replacement, a court with jurisdiction will select the arbitrator. If there is a
conflict between the Rules and this agreement to arbitrate, or between
this agreement to arbitrate and the Agreement, this agreement to
arbitrate shall control. Pursuant to the Rules, the AAA will select a single
arbitrator who shall have expertise in the substantive laws applicable to
the Claim’s subject matter. If the value of relief sought is $10,000 or less,
you or we may elect to have the arbitration conducted by telephone or
based solely on the submission of written documents, unless the Rules
or arbitrator requires an in-person proceeding. If the value of the relief
sought is more than $10,000, or an in-person proceeding is required, the
arbitration proceeding shall be conducted in the same city as the U.S.
District Court closest to your home address, unless the parties mutually
agree upon a different location in writing. Either party may, at its sole
cost and discretion, choose to be represented by an attorney at any
arbitration proceeding.

What Claims are Subject to Arbitration? As used in this section, the term
“Claim” has the broadest possible meaning and includes, but is not
limited to, any unresolved disagreement, controversy, dispute, or cause

The arbitrator may award any damages or other relief provided for under
applicable law as if an individual action were brought in court, including,
without limitation, punitive damages (which shall be governed by the

PLEASE READ THIS SECTION CAREFULLY. IT PROVIDES THAT,
WITH LIMITED EXCEPTIONS, YOU AND WE MAY ELECT TO
RESOLVE ANY DISPUTES BETWEEN YOU AND US BY BINDING
ARBITRATION. IF ARBITRATION IS ELECTED, YOU AND WE WAIVE
THE RIGHT TO A JURY TRIAL OR TRIAL BEFORE A JUDGE IN A
PUBLIC COURT, AND YOU AND WE WAIVE ANY RIGHT TO BRING
OR PARTICIPATE IN ANY CLASS ACTION OR SIMILAR
PROCEEDING.
YOU HAVE THE RIGHT TO OPT OUT OF THIS AGREEMENT TO
ARBITRATE AS SET FORTH BELOW.

4

Constitutional standards employed by the courts) and injunctive,
equitable and declaratory relief (but only in favor of the individual party
seeking relief and only to the extent necessary to provide relief
warranted by that party’s individual claim). If we made a written offer to
you to settle your Claim prior to an arbitrator being selected, and the
arbitrator awards you an amount greater than our last offer, if any, we will
(i) pay you the arbitrator’s award or $5,000, whichever is greater, and (ii)
pay your reasonable attorney, witness and expert fees and costs, if any.
Judgment on the arbitrator’s award is final and binding and may be
entered in any court of competent jurisdiction.

IN ANY OTHER REPRESENTATIVE CAPACITY ON BEHALF OF THE
GENERAL PUBLIC OR OTHER PERSONS SIMILARLY SITUATED IN
COURT OR IN ARBITRATION OR (iii) HAVE A COURT OR A JURY
RESOLVE THE CLAIM. MOREOVER, UNLESS MUTUALLY AGREED
UPON IN WRITING BY ALL PARTIES, CLAIMS MAY NOT BE
JOINED, CONSOLIDATED, OR OTHERWISE COMBINED WHETHER
OR NOT ANY SUCH COMBINATION OCCURRED AS A RESULT OF
AN ASSIGNMENT.
Rights Preserved. In addition to subjects excluded from arbitration in
accordance with the provision titled “Which Disputes are Not Subject to
Arbitration?” this agreement to arbitrate does not prohibit you or us, at
any time, from (a) exercising any lawful rights to preserve or obtain
possession of property or self-help remedies, including but not limited to,
the right to set-off, the right to restrain funds in a deposit account,
recoupment, repossession, replevin or trustee’s sales; (b) obtaining
provisional or ancillary remedies or injunctive relief (other than a stay of
arbitration), including but not limited to attachment, garnishment,
interpleader or the appointment of a receiver by a court of appropriate
jurisdiction; or (c) bringing an individual action in court that is limited to
preventing the other party from using a self-help or non-judicial remedy
and that does not involve a request for damages or monetary relief of
any kind.

The arbitrator, you and we will not disclose the existence, content or
outcome of any arbitration proceeding; provided, however, that
disclosures required by applicable law or regulation shall not be subject
to such restriction. The foregoing sentence does not prohibit any party
from, in good faith, investigating a claim or defense, including
interviewing witnesses or otherwise engaging in discovery as permitted
by the Rules. No arbitration award involving the parties will have any
preclusive effect as to issues or claims in any dispute involving anyone
who is not a party to the arbitration, nor will an arbitration award in prior
disputes involving other parties have preclusive effect in an arbitration
between the parties to this agreement to arbitrate.
How is Arbitration Initiated? If you or we elect to arbitrate a Claim, the
party electing arbitration must notify the other party in writing. This notice
can be given after the beginning of a lawsuit and can be given in papers
filed in the lawsuit (for example, a motion by the defendant to compel
arbitration of claims asserted by the plaintiff in a lawsuit filed in court).
Otherwise, your notice must be sent to Commerce Bank, Attn: ADR
Notice, P.O. Box 413037, Kansas City, MO 64141-3037, and our notice
will be sent to the most recent address for you in our files. If a party files
a lawsuit in court asserting Claim(s) that are subject to arbitration and the
other party files a motion to compel arbitration with the court which is
granted, it will be the responsibility of the party asserting the Claim(s) to
start the arbitration proceeding in accordance with the Rules.

Conflict, Survival and Severance. In the event of any conflict or
inconsistency between this agreement to arbitrate and other provisions
of this Agreement or the Rules, this agreement to arbitrate will govern.
This agreement to arbitrate shall survive any termination of or changes to
any of your Account subject to this Agreement; the transfer or
assignment of any of the foregoing; and the bankruptcy of any party to
the extent permitted by law. If any term or provision of this agreement to
arbitrate is held to be unenforceable, prohibited or invalid, the remaining
provisions shall be enforced without regard to such illegal or
unenforceable term or provision, except that:
(A) if any provision of this agreement to arbitrate regarding
class action, class arbitration, private attorney general action, other
representative action, joinder, or consolidation is determined by an
authority of competent jurisdiction to be unenforceable or illegal, such
provision shall not be severable and this agreement to arbitrate between
you and us (except for this sentence) shall be null and void, provided that
such determination of unenforceability or illegality shall be subject to
appeal. The parties acknowledge and agree that under no circumstances
will a class action, private attorney general action or other representative
action be arbitrated; and

Who Pays for Arbitration? Except as otherwise provided herein, we will
pay the filing, administration and arbitrator fees charged by the AAA for
any arbitration initiated in accordance with this agreement to arbitrate. If
you pay any initial filing fee, we will reimburse you. If you cannot afford to
pay any initial filing fees, we will pay them for you. We will pay any fees
or expenses that we are required to pay by law or the Rules or that we
are required to pay for this agreement to arbitrate to be enforced.
The arbitrator will have the authority to award fees and costs of
attorneys, witnesses and experts to the extent permitted by the Rules,
this agreement to arbitrate, the Agreement, or applicable law. We will not
seek to recover from you any fees or expenses we pay on your behalf, or
any attorney, witness or expert fees or other costs or expenses we incur
in defending an individual arbitration commenced by you.
Notwithstanding the foregoing, if the arbitrator finds that a Claim is
frivolous or brought in bad faith or for an improper purpose, then the
payment of all fees, costs and expenses shall be determined by the
Rules.

(B) if a Claim is brought seeking public injunctive relief and a
court determines that the restrictions in the “Waiver of Jury Trial and
Class or Representative Action” provision or elsewhere in this agreement
to arbitrate prohibiting the arbitrator from awarding relief on behalf of
third parties are unenforceable with respect to such Claim (and that
determination becomes final after all appeals have been exhausted), the
Claim for public injunctive relief will be determined in court and any
individual Claims seeking monetary relief will be arbitrated. In such a
case the parties will request that the court stay the Claim for public
injunctive relief until the arbitration award pertaining to individual relief
has been entered in court. In no event will a Claim for public injunctive
relief be arbitrated.

What Law is Applicable? You and we agree that our relationship
includes transactions involving interstate commerce and that this
agreement to arbitrate and any arbitration rule, proceeding and award
pursuant to the terms hereof, are governed by and enforceable pursuant
to the provisions of the Federal Arbitration Act (“FAA”) (9 U.S.C. § 1, et
seq.). Notwithstanding anything to the contrary in the Agreement, to the
extent that state law is applicable, including with respect to the
interpretation and enforcement of this agreement to arbitrate, Missouri
law shall apply to the extent consistent with the FAA. The arbitrator shall
decide the claim in accordance with applicable substantive law and the
terms of this Agreement, and shall apply all statutes of limitation and
honor attorney-client and other privileges.

DISPUTE RESOLUTION - JURY TRIAL WAIVER
You and we agree that in the event that any Claim or dispute between us
is not arbitrated but instead is resolved in court, you and we knowingly
and voluntarily waive the right to a jury trial to the full extent permitted by
applicable law.
__________________________________________
If you have any questions regarding this Agreement, or our current fee
schedule, write to us at Commerce Bank, P.O. Box 411036, Kansas
City, MO 64141-1036, or call us at 1-800-645-2103.

How do I Opt Out of the Agreement to Arbitrate? If you do not accept
this agreement to arbitrate, you may reject it (“opt out”). If you opt out,
neither you, nor we, will be subject to the requirement to resolve any
claim by arbitration or any other provision of this section.

(Effective 2/26/2020)

To opt out, you must send us written notice of your decision to reject this
agreement to arbitrate to the address set forth below. We must receive
your written notice by the later of: (i) May 1, 2020 or (ii) thirty (30) days
after we sent you this Agreement via US Mail, through electronic
disclosure, provided it to you in person, or by other reasonable delivery
method. Your written opt out notice must: (a) include a signed statement
that you reject the agreement to arbitrate set forth in this Agreement; (b)
include your name, address and the Account number you wish to opt out;
and (c) be sent to us at the following address: Commerce Bank, Attn:
ADR Credit Card Opt Out, P.O. Box 414220, Kansas City, MO 641414220.
This is the only way you can reject this agreement to arbitrate. If you opt
out, it will not affect any other terms of this Agreement, and it will not
adversely affect your Account or any relationship between you and us.
Your rejection of this agreement to arbitrate shall not be imputed to any
other person or entity or be deemed to be a rejection of this agreement
to arbitrate by any person or entity other than you. Nor shall your
rejection of this agreement to arbitrate eliminate the obligation of other
persons or entities who wish to reject this agreement to arbitrate to
personally comply with the notice and time requirements of this opt-out
provision. The agreement to arbitrate is the only section of this
Agreement that you can opt out of.
Waiver of Jury Trial and Class or Representative Action. UNLESS YOU
REJECT THIS AGREEMENT TO ARBITRATE IN ACCORDANCE
WITH THE TERMS OF THIS SECTION, YOU AND WE AGREE THAT
IF A CLAIM IS ARBITRATED, NEITHER YOU NOR WE WILL HAVE
THE RIGHT TO (i) PARTICIPATE IN A CLASS ACTION IN COURT OR
IN ARBITRATION, EITHER AS A CLASS REPRESENTATIVE OR
CLASS MEMBER, (ii) ACT AS A PRIVATE ATTORNEY GENERAL OR
5

OPTIONAL FEATURES
Commerce Bank credit cards may come with optional credit card
payment features, including Special ConnectionsSM and toggle®. The
Special ConnectionsSM and toggle® features are offered at the sole
discretion of Commerce Bank (“Commerce”) to Accountholders (“You” or
“Your”) that have Qualified Commerce Bank Credit Card Accounts. A
“Qualified Commerce Credit Card Account” means any open Account
that is not designated by Commerce as lost, stolen, fraud transferred,
credit revoked, closed, bankrupt, charged off, or in Consumer Credit
Counseling or recovery. By using these optional features, you
acknowledge that you have read and accepted the Commerce Bank
Special ConnectionsSM terms and conditions (“Special ConnectionsSM
Terms and Conditions”) and the Commerce Bank toggle® terms and
conditions (“toggle® Terms and Conditions”) which shall govern your use
of and rights under these optional features.

regular savings, and money-market accounts to make payments on your
Commerce credit cards, lines of credit or loans or (iii) take cash
advances on your Commerce credit cards.
The account(s) you designate for ATM accessibility will be considered
your Special ConnectionsSM Feature at the ATM account(s) (each, a
“ATM Account”). If you wish to designate one or more checking
accounts as an ATM Account, then you must designate one of those
checking accounts as your Point of Sale Account as defined below. In
order to have ATM access to your checking accounts, you must at all
times maintain a Point of Sale Account. If you no longer have a Point of
Sale Account, then you will lose ATM access to all of your checking
accounts.
Commerce has no control over the functionalities offered at nonCommerce ATMs. Some or all of these features may not be available at
all non-Commerce ATMs and some ATMs may allow you to perform
other functions not mentioned here, including the ability to make
purchases (e.g. stamps). If at any time you use a non-Commerce ATM
to request to take money from an account that you do not have or if the
non-Commerce ATM does not prompt you to select a specific account
from which to take the money, then you agree that Commerce will
attempt to comply with your request by providing you with money from
one of your open ATM Accounts. Cash withdrawals may be taken from
any open deposit ATM Account owned by you and cash advances may
be taken from any credit card ATM Account owned by you.

The Special ConnectionsSM Terms and Conditions and toggle® Terms
and Conditions are a separate agreement and are not part of your
Agreement.
SPECIAL CONNECTIONSSM FEATURE
With this feature (“Special ConnectionsSM Feature”), and as permitted
from time to time, you may use your Card to access Commerce Bank
Special ConnectionsSM Feature-eligible deposit accounts, credit cards,
lines of credit, and/or loans. You may request the Special ConnectionsSM
Feature from a Commerce Bank branch, through Commerce Bank
Online Banking, or from our Customer Service Department at 1-800-6452103. These features are not automatically activated.

Point of Sale Transaction
You may designate one (1) checking account as your Special
ConnectionsSM Feature at the point of sale account (“Point of Sale
Account”). At merchants that have agreed to accept the Card on
networks utilized by us and support the Special ConnectionsSM Feature,
you can use funds in your Point of Sale Account to pay for your
purchases. The use of your Card in this manner constitutes a
simultaneous withdrawal from and/or demand upon your checking
account, even though the transaction may not actually be posted to your
account until a later date. Merchants decide how to interact with the
Special ConnectionsSM Feature and the experience may vary.

For customers with a Special Connections® Visa® or MasterCard® credit
card, please note: The Special ConnectionsSM Feature is different from a
Commerce Bank Special Connections® Visa or MasterCard credit card.
The Special ConnectionsSM Feature allows you to add certain
functionality to any Commerce Bank-issued credit card, including
Commerce Bank’s Special Connections® Visa or MasterCard credit card.
However, your Special Connections® Visa or MasterCard credit card is
not automatically enabled with the Special ConnectionsSM Feature. You
must proactively enroll any credit card, including your Special
Connections® Visa or MasterCard credit card, in the Special
ConnectionsSM Feature in order for that card to utilize the Special
ConnectionsSM Feature’s capabilities described herein.

Only Commerce checking accounts are eligible for this functionality and
only one (1) Commerce Bank checking account can be designated as
the Point of Sale Account at any one time. Your Point of Sale Account
shall always remain as an ATM Account. If at any time you instruct
Commerce to remove the Point of Sale capabilities from your card, you
will no longer have access to any of your checking accounts at the ATM.

ELECTRONIC FUND TRANSFERS
The following provisions apply only to electronic fund transfers (“EFTs”).
EFTs are any transfer of funds initiated with your Card(s) at an ATM or
as a debit transaction at Point of Sale. We can cancel these services at
any time and for any reason without notice. We can also cancel your
entire Account, including credit card services, and revoke your Card(s)
as provided in the CANCELLATION paragraph above. This may be
done by an ATM or merchant not returning your Card(s) to you. We may
change the terms of this Agreement relating to EFTs without notice to
you unless required by law.

ATM and Point of Sale transactions will post to your checking account(s)
as detailed in your Deposit Agreement.
Foreign Transaction
For transactions occurring outside of the United States, the nature of
which is unspecified to us, we will apply the transaction to accounts in
the following order: checking, money-market, regular savings,
Commerce Visa or Commerce MasterCard.

TELEPHONE NUMBER AND ADDRESS TO BE NOTIFIED IN EVENT
OF UNAUTHORIZED TRANSFER
Tell us AT ONCE if you believe your card has been lost or stolen, or if
you believe that an electronic fund transfer has been made without your
permission using information from your check. Telephoning is the best
way of keeping your possible losses down. You could lose all the money
in your account plus your maximum overdraft line of credit. If you tell us
within 2 business days after you learn of the loss or theft of your card,
you can lose no more than $50 if someone used your card without your
permission.

Limitation on Frequency of Transfers. There are no limitations on the
number of transfers that can be made during any time period to or from
any deposit account, except as provided by federal regulations limiting
preauthorized transfers. By federal regulation, you are limited during any
statement cycle to six preauthorized transfers (three of which may be by
check, draft or similar order if the account is a money market-type
account).

If you do NOT tell us within 2 business days after you learn of the loss or
theft of your card, and we can prove we could have stopped someone
from using your card without your permission if you had told us, you
could lose as much as $500.

Limitation on Dollar Amount of Transfers. The balance available for
authorizing purchases and cash withdrawals is the lesser of 1) your
available deposit account balance, plus any credit available through an
overdraft protection line of credit or through any overdraft authorized by
us in our sole discretion, OR 2) daily dollar limitations. For cash
advances against a Commerce Bank credit card, you may withdraw cash
up to the lesser of your credit line or daily dollar limitations. In addition,
daily withdrawal frequency limitations may apply to cash advances.
Dollar limitations may differ at ATMs other than ours.

Also, if your statement shows transfers that you did not make, including
those made by card, code or other means, tell us at once. If you do not
tell us within 60 days after the statement was mailed to you, you may not
get back any money you lost after the 60 days if we can prove that we
could have stopped someone from taking the money if you had told us in
time. If a good reason (such as a long trip or a hospital stay) kept you
from telling us, we will extend the time period. By permitting another
person to use the card, you authorize and are fully liable for any
transactions that person initiates until that person’s authority is ended.
You may only end that person’s authority by notifying us.

Online Gambling. You agree that you will not use your card for any
purpose that has been deemed illegal. We reserve the right to deny
authorization requests from online gambling merchants, whether or not
online gambling is illegal in the state in which you use your card.
Reservations and Merchant Authorization. Under certain
circumstances, a merchant (e.g., hotel) may require the use of a card to
guarantee reservations that may result in a hold on the available funds in
the account. If you cancel any guaranteed reservation made using the
card, you must obtain a cancellation number. If you fail to do so, the hold
placed for the guaranteed reservation will not be canceled and the
amount will be held against the balance in the account. This may limit
your future transactions. Further, if the merchant subsequently charges
the amount of the guaranteed reservation to the account, we will not be
obligated to re-credit the account if you fail to obtain a cancellation
number. In addition, authorizations issued for card transactions must be
canceled when you initiate a card transaction and subsequently use
another form of payment for the transaction such as a credit card or
cash, since failure to have the authorization canceled may also result in
a hold on funds in the account and limit your future transactions.

If you believe your card has been lost or stolen, or that someone has
transferred or may transfer money from your account without your
permission, call us at 1-800-617-7480 or write to us at Commerce Bank,
PO Box 411036, Kansas City, MO 64141-1036. You should also call the
number or write to the address listed above if you believe a transfer has
been made using the information from your check without your
permission.
TYPES OF AVAILABLE TRANSFERS AND LIMITS ON TRANSFERS
Account Access. The following EFTs are only available if you request
the Special ConnectionsSM Feature. Depending on the type of accounts
that Commerce determines from time-to-time are eligible for the Special
ConnectionsSM Feature as well as which of your accounts you choose to
access using the Special ConnectionsSM Feature, you may use your Card
to perform the following functions where otherwise permitted:

POINT OF SALE TRANSACTIONS
The use of your card with the Special Connections SM Feature to
purchase goods and services constitutes a simultaneous withdrawal from
and/or demand upon your checking account, even though the transaction
may not actually be posted to your account until a later date. Any person
or merchant honoring your card may be required to obtain approval or

ATM Transaction
At the ATM, insert your Card and enter the credit card PIN that you
established for this Card to (i) withdraw cash from, deposit money in,
transfer funds between, or learn the balances in your checking, regular
savings or money-market accounts; (ii) use funds from your checking,
6

•

authorization for any transaction. When we approve a non-PIN
transaction (which may or may not require your signature), we may
immediately reduce the available balance in your checking account by
the authorization amount requested by the merchant even though we
have not received the transaction electronically for payment, which may
differ from the final posted amount.

•
•
•

This authorization amount will not be available until our receipt of the
transaction OR no more than three business days after the transaction
date, whichever first occurs. If funds are not available for checks, other
items or debits, you may be subject to overdraft or insufficient funds fees.
Transactions with your card will be posted to your account in the order
and with the same legal effect as checks or other debits drawn on your
account. You may use your card only in the manner and for the purposes
authorized by this Agreement. We may recognize a transaction even if
we have not authorized it, but that does not mean we will authorize the
same type of transaction again. You do not have the right to stop
payment on any transaction originated by use of your card with the
Special ConnectionsSM Feature, except recurring preauthorized transfers
as described in this Agreement.

If the ATM where you are making the transfer does not have
enough cash.
If the terminal or system was not working properly and you knew
about the breakdown when you started the transaction.
If circumstances beyond our control (such as flood or fire) prevent
the transfer, despite reasonable precautions that we have taken.
There may be other exceptions stated in our Agreement with you.

ERROR RESOLUTION PROCEDURES
In case(s) of errors or questions about your EFTs, telephone us at 1-800617-7480 or write us at Commerce Bank, PO Box 411036, Kansas City,
MO 64141-1036 as soon as you can, if you think your statement or
receipt is wrong, or if you need more information about a transfer listed
on the statement or receipt. We must hear from you no later than 60
days after we sent the FIRST deposit statement on which the problem or
error appeared.
•
Tell us your name and account number.
•
Tell us the name of the merchant, the transaction date and the
dollar amount of the suspected error.
•
Describe the error or the transfer you are unsure about, and explain
as clearly as you can why you believe it is an error or why you need
more information.
•
Tell us if you have already attempted to resolve the issue directly
with the merchant.
•
If you tell us orally, we may require that you send your complaint or
question in writing within 10 business days.

Overdrafts. You are responsible for all authorized transactions initiated
by use of your card with the Special ConnectionsSM Feature. If a negative
balance (overdraft) in your checking account results from the use of the
card with the Special ConnectionsSM Feature, you will pay us on demand
this negative balance and our then current charge for overdrafts. If you
have an overdraft line of credit (Checking Plus) for an account, you are
bound by the rules and regulations that apply to that credit privilege
(Overdraft Protection). In addition, if your checking account is closed
before transactions are posted, you will pay us on demand the
outstanding amount.

We will determine whether an error occurred within 10 business days
after we hear from you and will correct any error promptly. If we need
more time, however, we may take up to 45 calendar days to investigate
your complaint or question. If we decide to do this, we will credit your
deposit account within 10 business days for the amount you think is in
error so that you will have the use of the money during the time it takes
us to complete our investigation. If we ask you to put your complaint or
question in writing and we do not receive it within 10 business days, we
may not credit your deposit account.

FEES
Fees for all EFT services are disclosed in our fee schedule. You will
receive a fee schedule at account opening. You may request a copy of
our current fee schedule at any Commerce branch or by contacting 1800-453-2265. When you use an ATM not owned by us you may be
charged a fee by the ATM operator (or any network used) for a
transaction or for a balance inquiry even if you do not complete a fund
transfer.

For errors involving new accounts, point-of-sale, or foreign-initiated
transactions, we may take up to 90 days to investigate your complaint or
question. For new accounts, we may take up to 20 business days to
credit your account for the amount you think is in error.

RIGHT TO RECEIVE DOCUMENTATION OF TRANSFERS
Terminal Receipts. You will get a receipt at the time you make any
transfer to or from your deposit account using an ATM or electronic POS
terminal.

We will tell you the results within three business days after completing
our investigation. If we decide that there was no error, we will send you a
written explanation. You may ask for copies of documents that we used
in our investigation.

Preauthorized Credits. If you have arranged to have direct deposits
made to your deposit account at least once every 60 days from the same
person or company, you can call us at 1-800-746-8704 to find out
whether or not the deposit has been made.

TOGGLE® FEATURE
Commerce may add toggle® to any Qualified Commerce Visa or
MasterCard Credit Card Account.
DEMAND DEPOSIT ACCOUNT
You may link up to two (2) demand deposit accounts (each, a “DDA”) to
Your Qualified Commerce Credit Card Account for the use of the toggle®
payment feature.

Periodic Statement. You will get a monthly deposit statement if you
have a deposit account upon which checks or drafts may be drawn. You
will get a monthly deposit statement on your regular savings account if
there are electronic transfers during the month. In any case, you will get
a regular savings deposit statement quarterly.

If You link a Commerce DDA to Your Account, that DDA must be an
open checking account. You must have an ownership relationship to that
DDA in order to link it to Your credit card Account. Any person using the
Account and/or related Card(s) with the expressed or implied permission
of any of the applicants (“Authorized Users”) will have access to the
linked DDA through the use of Your Account.

DISCLOSURE OF ACCOUNT INFORMATION TO THIRD PARTIES
We will disclose information to third parties about your account or the
transfers you make:
•
Where it is necessary for completing transfers. Merchants with
whom you’ve shared your account number may be updated with
new account information to ensure the continuation of your payment
agreement.
•
In order to verify the existence and condition of your account for a
third party, such as a consumer reporting agency or merchant.
•
In order to comply with government agency or court orders.
•
If you give us your permission.
•
In accordance with our current Privacy Policy Notice.

Any DDA that has been designated by Commerce as having a
garnishment, a closed-to-posting restriction, or has been forced to close
by Commerce, will not be eligible to link to Your Account for the purpose
of the toggle® payment feature. Small Business banking accounts will not
be eligible to link to Your Account for the purpose of the toggle® payment
feature.
If You link a non-Commerce DDA to Your Account, You must provide
Commerce with the account number and the routing information for that
financial institution. Certain transaction restrictions may apply to such
non-Commerce DDAs. Please refer to such bank’s terms and conditions
of Your DDA for applicable fees, restrictions and/or limitations of Your
DDA.

RIGHT TO STOP PAYMENT OF PREAUTHORIZED TRANSFERS AND
PROCEDURES FOR DOING SO; RIGHT TO RECEIVE NOTICE OF
VARYING AMOUNTS; AND OUR LIABILITY FOR FAILURE TO STOP
PAYMENT
If you have told us in advance to make regular payments out of your
deposit account, you can stop any of these payments. Here’s how: Call
us at 1-800-617-7480 or write us at Commerce Bank, PO Box 411036,
Kansas City, MO 64141-1036 in time for us to receive your request three
business days or more before the payment is scheduled to be made. If
you call, we may also require you to put your request in writing and get it
to us within 14 days after your call.

PAYMENT PREFERENCES
“Payment Preferences” means the selection of a category, setting and/or
amount you choose to determine if a credit card purchase is to be paid
for from your linked DDA or if it is to remain a part of your credit card
balance.

Notice of Varying Amounts. If these regular payments may vary in
amount, the person you are going to pay will tell you, 10 days before
each payment, when it will be made and how much it will be. You may
choose to get this notice only when the payment would differ by more
than a certain amount from the previous payment, or when the amount
would fall outside certain limits that you set.

PAY NOW®
“Pay Now®” means a credit card purchase that will be automatically paid
for from Your DDA according to Your Payment Preferences. Any
purchase made by You or an Authorized User with Your Account, will be
paid for from the DDA that has been linked to Your Account, and in
accordance with the Payment Preferences that have been selected by
the applicants of the Account.

Liability for Failure to Stop Payment of Preauthorized Transfers. If
you order us to stop one of these payments three business days or more
before the transfer is scheduled, and we do not do so, we will be liable
for your losses or damages.

When a toggle® credit is posted to your Account, we reserve the right to
place a temporary hold on the available credit created by the toggle®
credit. toggle® does not, nor is it intended to, shorten the time frame in
which your available credit is replenished after a payment to your
Account.

Our Liability for Failure to Make Transfers. If we do not complete a
transfer to or from your deposit account on time or in the correct amount
according to our Agreement with you, we will be liable for your losses or
damages. However, there are some exceptions. We will not be liable, for
instance:
•
If through no fault of ours, you do not have enough money in your
account to make the transfer.
•
If the transfer would go over the credit limit on your overdraft line.

Purchases may take 1-2 business days to post to Your Account following
the date of Purchase. After the Purchase has posted to Your Account, an
ACH may take 1-2 business days to appear as a debit on Your DDA.
Payments are not applied to the required minimum payment due on Your
Statement each month. You will still have a required minimum payment
7

due each month, which will appear on Your Statement and will be
subject to the terms of Your cardholder agreement.

This authorization is to remain in effect until Commerce has received
electronic notice of termination from You. You may terminate toggle®
electronically through Online Banking, or by contacting us at 1-800-6452103. Your notice must be sent in such time and manner as to afford
Commerce Bank a reasonable opportunity to act upon the termination
(but in no event less than three business days). Commerce reserves the
right to decline or cancel toggle® service at any time.

PAY LATER
“Pay Later” means any Purchase that is made with Your Account that will
not be automatically paid for from a DDA, and will become a part of your
outstanding credit card balance.
You may choose to use the Pay Later feature for Your Purchases by
choosing not to activate a specific Payment Preference, by deactivating
a previously chosen Payment Preference, by cancellation of a linked
DDA, or by the cancellation of the toggle® payment feature from Your
credit card Account.
UNWIND®
“Unwind®” means the ability to return funds that were used to pay for a
Purchase from Your DDA with the Pay Now® feature, and to have the
original Purchase placed back on to Your Account.
You will have up to 30 calendar days to use the Unwind® feature for a
Pay Now™ feature Purchase. When the Purchase posts back to Your
Account, it will post with the original transaction date, and will be subject
to interest charges according to the terms of Your Cardholder
Agreement. We reserve the right to limit the total amount of your
Unwind® feature requests from exceeding the available credit for Your
Account.
TOGGLE ON DEMAND™
“toggle On Demand™” means any credit card purchase that You
manually choose to be paid from either Your DDA or reward points after
the transaction posts to Your Account.
ACH RETURNS
If an ACH payment request is returned for any reason, the original
Purchase that initiated that ACH payment request will be posted back to
Your Account and will be due according to the terms of Your Agreement.
An ACH return for any reason will result in the deactivation of any active
Payment Preferences for the DDA that caused the return, and any other
DDA that might share an active Payment Preference. Your Payment
Preferences will remain deactivated until such time that you re-activate
Your Payment Preferences.
If Your Payment Preferences are not active, any pending and future
Purchases that previously matched that Payment Preference, will post to
Your Account and will not initiate an ACH payment request. These
Purchases will become a part of your outstanding credit card balance
with Commerce and will be due according to the terms of Your
Cardholder Agreement.
If You have linked a Commerce DDA to Your Account, any ACH
payment request that would result in an overdraft of Your DDA will be
returned to Your Account, and no overdraft or insufficient funds fees will
be assessed to You. If you have linked a non-Commerce DDA to Your
Account, You may be assessed overdraft and/or insufficient funds fees
according to that financial institution's deposit agreement.
toggle® ALERTS
Commerce will use the email address provided by You at the time of the
Account(s) or Card(s) opening to notify you of important changes in
regard to the toggle® payment feature for Your Account. You will not be
able to turn off these notifications. You agree that You are responsible
for maintaining a valid email address and agree to notify us of any
change in Your email address. You can change the email address for
account notification at any time through Commerce Online Banking.
Should delivery of the account notification be unsuccessful, it remains
Your responsibility to monitor Your toggle® Payment Preferences in a
timely manner from Commerce Online Banking.
GENERAL TERMS & CONDITIONS
You must be enrolled in a Commerce Rewards Program in order to
receive rewards for Your Purchases.
Commerce reserves the right, in its sole discretion, to suspend, cancel or
modify the toggle® payment feature at any time and for any reason and
without prior notice.
Commerce reserves the right, in its sole discretion, to add, delete,
change or revise these toggle® Terms and Conditions including, but not
limited to, qualifications for participation in toggle®.
Commerce reserves the right, in its sole discretion, to disqualify any
Accountholder from participation in toggle® in cases of actual or
suspected abuse, fraud, violations of these toggle® Terms and
Conditions or any actual or suspected abuse or fraud with respect to the
Account or DDA.
Neither Commerce nor its third-party service providers, their respective
employees, officers, affiliates or agents will be liable to You for any
action or inaction any of them take or fail to take with respect to toggle®
or any changes to these toggle® Terms and Conditions.
All trademarks, service marks and trade names used by Commerce for
toggle®, including the toggle® design are property of Commerce. No use
of these may be made without the prior written authorization of
Commerce.
By using toggle®, You agree to all of the toggle® features, limitations and
restrictions contained in these toggle® Terms and Conditions as well as
any additional terms and conditions contained in any programs,
promotions or transactions that may be offered to You from time-to-time
and any terms and conditions contained in any document issued to You
by Commerce.

8

